                                                                  Issue Date
                                                                           December 4, 2007
                                                                  Audit Report Number
                                                                               2008-AO-0001




TO:         David Vargas, Director, Office of Housing Voucher Programs, PE


FROM:       Rose Capalungan, Regional Inspector General for Audit, GAH

SUBJECT: HUD Had a Less Than 1 Percent Error Rate in Housing Ineligible Participants
         for KDHAP and DVP Disaster Housing Assistance


                                    HIGHLIGHTS

 What We Audited and Why

             We audited the U.S. Department of Housing and Urban Development’s (HUD)
             Katrina Disaster Housing Assistance Program (KDHAP) and Disaster Voucher
             Program (DVP) administered by public housing agencies. We initiated the audit
             as part of our examination of relief efforts provided by the federal government in
             the aftermath of Hurricanes Katrina and Rita.

             Our audit objectives were to determine whether HUD (1) properly determined the
             eligibility of KDHAP/DVP participants and (2) implemented adequate measures
             to prevent KDHAP/DVP participants from receiving duplicate housing assistance
             from other HUD housing programs.

 What We Found


             HUD did not always ensure that only eligible KDHAP/DVP participants received
             disaster housing assistance. This condition occurred because during its development
             of the Disaster Information System, HUD included names of participants who were
             not residing in HUD-assisted dwellings immediately before the Hurricane Katrina
             evacuation. In addition, HUD did not specify in the family eligibility requirements
             for KDHAP/DVP that families with regular vouchers that were searching for
             housing but never had a housing assistance payments contract executed on their
           behalf in the disaster area were ineligible for these programs. As a result, as of
           August 31, 2007, $760,317 in federal funds had been misspent for 84 KDHAP/DVP
           participants who were ineligible for disaster assistance. If ineligible costs continue
           to be incurred, HUD could spend an additional $153,808 on ineligible participants
           from September 2007 to the end of the program. However, these 84 participants
           count as less than 1 percent of the total number of participants according to the
           KDHAP Information System.

           We will report the results of our review regarding the adequacy of HUD’s
           measures to prevent duplicate housing assistance in a separate audit report.


What We Recommend

           We recommend that HUD’s Director of Housing Voucher Programs take
           appropriate actions deemed necessary to recover or write off the $760,317 in
           federal funds that was misspent on 84 ineligible participants, immediately cease
           paying funding on the participants ineligible for KDHAP and/or DVP to prevent
           misspending $153,808 in federal funds, and take appropriate actions to remove
           any other ineligible participants from the Disaster Information System.

           Please respond and provide status reports in accordance with HUD Handbook
           2000.06, REV-3. Please furnish us copies of any correspondence or directives
           issued because of the audit.


Auditee’s Response

           We provided the Director of the Housing Choice Voucher program a discussion
           draft on October 2, 2007 and requested HUD’s response by October 31, 2007.
           Further, we conducted an exit conference with HUD on October 9, 2007. The
           Director provided written comments to the discussion draft, dated November 16,
           2007. HUD generally agreed with the finding but disagreed with the
           recommendations. The complete text of HUD’s written response, along with our
           evaluation of that response, can be found in appendix B of this report.




                                             2
                            TABLE OF CONTENTS

Background and Objectives                                                    4

Results of Audit

Finding 1: HUD Did Not Always Ensure That Only Eligible KDHAP/DVP            5
           Participants Received Disaster Housing Assistance

Scope and Methodology                                                        11

Internal Controls                                                            13

Followup on Prior Audits                                                     15

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use         16
   B. Auditee Comments and OIG’s Evaluation                                  17
   C. Ineligible Participant Funding Calculations                            27
   D. KDHAP Family Eligibility Requirements                                  28
   E. DVP Family Eligibility Requirements                                    29
   F. Funding Provided to Ineligible Participants (Non-HUD-Assisted before   30
      Hurricane Katrina)
   G. Funding Provided to Ineligible Participants (without a Housing         32
      Assistance Payments Contract)




                                            3
                              BACKGROUND AND OBJECTIVES

The U.S. Department of Housing and Urban Development (HUD) and the Federal Emergency
Management Agency (FEMA) executed a $79 million mission assignment1 in October 2005.
Through the mission assignment, HUD developed the Katrina Disaster Housing Assistance
Program (KDHAP) in response to Hurricane Katrina. KDHAP provided temporary monthly rent
subsidies to assist certain participants2 displaced by Hurricane Katrina. KDHAP assists in
obtaining decent, safe, and sanitary housing in the privately owned rental market.

In December 2005, the Defense Appropriations Act of 2006 appropriated $390 million to HUD
for temporary rental voucher assistance for certain participants displaced by Hurricanes Katrina
and Rita, thereby creating the Disaster Voucher Program (DVP). DVP replaced KDHAP.
Effective January 31, 2006, the FEMA mission assignment with HUD ended, along with
KDHAP,3 and DVP began February 1, 2006.

HUD implemented KDHAP/DVP through local participating public housing agencies and
referral call centers (RCC). Under KDHAP and DVP, the housing agencies assumed the
responsibility to (1) provide a monthly rent subsidy on behalf of the participants and (2) actively
assist the potential participants in locating an eligible unit. HUD established a contractor to
implement the RCCs. The RCCs established counselors to relocate potential participants and
lease available units throughout the country. The RCC counselors used HUD-provided
resources, including information systems and referral tools, to match potential participants with
housing agencies’ available units. The primary role of the RCC counselors was to ensure that
potential participants were on the eligibility list for the programs and that their requests for a
specific location and unit type were available.

HUD developed Office of Public and Indian Housing (PIH) notices for each program as
operating requirements entailing the policies and procedures for the programs. These operating
requirements explain the design features of KDHAP and/or DVP.

Our audit objectives were to determine whether HUD (1) properly determined the eligibility of
KDHAP/DVP participants and (2) implemented adequate measures to prevent KDHAP/DVP
participants from receiving duplicate housing assistance from other HUD housing programs.

We will report the results of our review regarding the adequacy of HUD’s measures to prevent
duplicate housing assistance in a separate audit report.




1
    The mission assignment was an interagency agreement between HUD and FEMA.
2
    “Certain participants” means participants who were previously HUD assisted or homeless before Hurricane Katrina.
3
 Some KDHAP participants were initially ineligible for DVP; therefore, those participants continued to receive KDHAP
assistance after January 31, 2006.


                                                                4
                                           RESULTS OF AUDIT


Finding 1: HUD Did Not Always Ensure That Only Eligible
KDHAP/DVP Participants Received Disaster Housing Assistance
HUD did not always ensure that only eligible KDHAP/DVP participants received disaster housing
assistance. This condition occurred because during its development of the Disaster Information
System, HUD included names of participants who were not residing in HUD-assisted dwellings
immediately before the Hurricane Katrina evacuation. In addition, HUD did not specify in the
family eligibility requirements for KDHAP/DVP that families with regular vouchers that were
searching for housing but never had a housing assistance payments contract executed on their behalf
in the disaster area were ineligible for these programs. As a result, as of August 31, 2007, $760,317
in federal funds had been misspent for 84 KDHAP/DVP participants who were ineligible for
disaster assistance.4 If ineligible costs continue to be incurred, HUD could spend an additional
$153,808 from September 2007 to the end of the program. However, these 84 participants count as
less than 1 percent of the total number of participants according to the KDHAP Information System.




    Federal Requirements


                   In accordance with the (1) Robert T. Stafford Disaster Relief and Emergency
                   Assistance Act; (2) Department of Defense Appropriations Act of 2006; and (3)
                   Emergency Supplemental Appropriations Act for Defense, the Global War on
                   Terror, and Hurricane Recovery, HUD developed policies and procedures for the
                   administration of KDHAP and DVP. For KDHAP, HUD issued the KDHAP
                   Interim Operating Requirements and Notice PIH 2005-36. For DVP, HUD issued
                   Notice PIH 2006-12 and Notice PIH 2006-37. All of these operating
                   requirements for KDHAP and DVP contained family eligibility criteria, which
                   were determined by FEMA and HUD. For both programs, the eligibility criteria
                   included a requirement that the individual or family must have resided in a HUD-
                   assisted dwelling unit or have been homeless immediately before evacuation.
                   (See appendixes D and E for the complete family eligibility requirements for
                   KDHAP and DVP, respectively.)

                   According to HUD, the word “immediately” meant that when a participant
                   evacuated the area as a result of the hurricane, the participant’s residence at the
                   time of the evacuation was a HUD-assisted dwelling unit under a housing
                   assistance payments contract. The word (immediately) was used to clarify that

4
 The $760,317 includes $76,923 in misspent federal funds for 32 KDHAP/DVP participants listed as residing with the Housing
Authority of New Orleans before Hurricane Katrina who were identified as ineligible as a result of data analysis. The estimate of
misspent funds and identification of the ineligible participants is subject to adjustment should actual records become available.


                                                               5
         former HUD-assisted residents who were no longer residing in HUD-assisted
         units at the time of the hurricane were not eligible for KDHAP assistance.

HUD’s Disaster Information
System


         In response to Hurricane Katrina and later Hurricane Rita (the disasters), HUD
         developed the KDHAP Information System, now known as the Disaster
         Information System. During the initial development stages of the KDHAP
         Information System, HUD

         1. Retrieved HUD-assisted housing data to obtain information about participants
            who received HUD assistance before the disasters. The HUD-assisted
            housing data included

                •   The Public Housing Information Center (PIC), which held information
                    related to participants who were under Section 8 programs (rental
                    voucher, rental certificate, and moderate rehabilitation programs) or
                    public housing households;
                •   Public housing rent rolls, which held a listing of assisted participants
                    who were in public housing;
                •   Housing assistance payment registers, which held a registry for
                    participants who were in Section 8 programs; and
                •   The Tenant Rental Assistance Certification System (TRACS), which
                    contains information related to participants who are assisted by
                    programs administered by HUD’s Office of Multifamily Housing
                    Programs.

         2. Coordinated with FEMA and retrieved a FEMA database of families
            registered in connection with Hurricane Katrina. The FEMA database
            included Katrina evacuees from a federally declared disaster area within
            Louisiana, Mississippi, or Alabama, whose place of residence was destroyed
            or uninhabitable.

         3. Matched the FEMA database with the HUD-assisted housing data and
            compiled a HUD-FEMA database of potential KDHAP-eligible participants.

         4. Filtered out information pertaining to participants who were not HUD assisted
            as of August 29, 2005 (Hurricane Katrina), to eliminate inactive participants.

         During the transition from KDHAP to DVP, HUD transitioned the KDHAP
         Information System to the Disaster Information System, a Web-based system that
         provides initial intake information. The system also acts as a reporting
         mechanism for KDHAP/DVP public housing agencies (receiving housing
         agencies) to provide subsidy information to HUD once a participant has leased a


                                          6
    unit using disaster assistance. In addition, the system contains information related
    to KDHAP and DVP participants who were receiving HUD assistance
    immediately before the disaster evacuation.

Families Non-HUD-Assisted
before Hurricane Katrina


    Some families in the KDHAP Information System were inactive or not located in
    PIC or TRACS before August 29, 2005, and, therefore, were not residing in a
    HUD-assisted dwelling immediately before the Hurricane Katrina evacuation. In
    addition, within the KDHAP Information System, these families were shown as
    having been provided housing assistance before Hurricane Katrina and were,
    therefore, not determined homeless. A file review of 162 KDHAP/DVP
    participants determined that 50 (or 30 percent) participants were ineligible for
    KDHAP/DVP. These participants were inactive, or their names were not
    included in either PIC or TRACS before Hurricane Katrina (appendix F). Of the
    50 instances,

           •   13 participants had been inactive in PIC since between April 3, 2003,
               and August 1, 2005.

           •   30 participants had been inactive in the TRACS since between October
               1, 2004, and August 25, 2005. Six of these participants, in addition to
               being listed as inactive in TRACS, had no record of assistance at the
               HUD-assisted multifamily dwelling where TRACS listed them as
               residing.

           •   Seven participants had no record of HUD assistance before Hurricane
               Katrina. HUD coded these participants as “FHA [Federal Housing
               Administration] Multifamily” in the KDHAP Information System,
               meaning that these participants were designated as multifamily
               participants before Hurricane Katrina. As a result, the participants
               should have been listed in TRACS and residing in a multifamily-
               assisted dwelling before Hurricane Katrina. However, the participants
               were neither listed in TRACS nor housed in a HUD-assisted dwelling
               unit.

    Although HUD explained that participants who were not HUD assisted at the time
    of the hurricane were ineligible, these ineligible participants were entered into the
    KDHAP Information System. As a result, as of August 31, 2007, $664,328 in
    federal funds had been misspent for 50 KDHAP/DVP participants who were
    ineligible for disaster assistance. In addition, HUD continued to incur ineligible
    costs and could pay an additional $151,924 from September 2007 to the end of the
    program.




                                       7
 Initial Eligibility Requirements
 Not Specified

      HUD did not specify in the family eligibility requirements for KDHAP/DVP that
      families with regular vouchers who were searching for housing but never had a
      housing assistance payments contract executed on their behalf in a disaster area
      were ineligible for these programs. A file review of 162 KDHAP/DVP
      participants identified two (or 1 percent) additional participants who were
      ineligible for KDHAP/DVP. Although these KDHAP/DVP participants were
      searching for housing with a regular housing voucher at the time of the disasters,
      they were not yet receiving HUD voucher assistance because a housing assistance
      payments contract had not yet been executed by the public housing agency and
      the landlord on their behalf (appendix G). This condition occurred because
      housing agencies were uncertain as to how to deal with this situation. Moreover,
      HUD’s eligibility requirements did not specify how to deal with this situation.

      To clarify the uncertainty, HUD issued directives concerning this issue in
      November 16, 2005. In the directives, HUD informed receiving public housing
      agencies that those who were in search of housing with a regular (nondisaster)
      voucher but never had a housing assistance payments contract executed on their
      behalf were not eligible for KDHAP. However, the participant could receive
      assistance under the (nondisaster) voucher program in the issuing housing
      agency’s jurisdiction or in another location if the initial housing agency permitted
      the participant to move under portability. The housing agency in the disaster area
      also had the option to extend the term of the participant’s current voucher in
      accordance with public housing agency policy as described in the housing
      agency’s administrative plan.

      Although HUD provided directives clarifying the eligibility for voucher holders who
      were in search of housing, these participants began receiving disaster assistance
      before November 2005 and continued to receive assistance thereafter. As a result, as
      of August 31, 2007, $19,066 in federal funds had been misspent for two
      KDHAP/DVP participants who were ineligible for disaster assistance. Also, HUD
      could pay an additional $1,884 in federal funds toward one of the ineligible
      participants from September 2007 to the end of the program. The other participant’s
      participation has ended; therefore, HUD would incur no additional costs.


Other Concerns


      Although during the file review, 52 of the 162 KDHAP/DVP participants were
      determined ineligible, all 162 participants were either inactive or not located in
      the HUD-assisted databases (PIC and TRACS). Therefore, HUD should review
      the accuracy of the PIC and TRACS data for KDHAP/DVP participants.



                                        8
       In addition, during the file review of the 162 KDHAP/DVP participants, 12 (or 7
       percent) participants received minor to no damage to their pre-Hurricane Katrina
       dwelling unit. Therefore, these participants were potentially ineligible to receive
       disaster assistance. However, FEMA determined habitability initially, and,
       therefore, the determination was dependent upon FEMA. As a result, we note
       this discovery as a concern.


Housing Authority of New
Orleans Eligibility Analysis

       The file review did not extensively cover the Housing Authority of New Orleans
       (Authority) because of the significant damage it suffered during Hurricane
       Katrina. Consequently, instead of file review, a data analysis was conducted.

       The results of the analysis identified 32 participants who resided under the Authority
       before Hurricane Katrina but were not actively receiving HUD assistance at the time
       of Hurricane Katrina. In other words, the 32 participants did not reside in a HUD-
       assisted dwelling immediately before the Hurricane Katrina evacuation and were,
       therefore, ineligible to receive disaster assistance. As a result, $76,923 in federal
       funds was misspent for the 32 KDHAP/DVP participants who were ineligible for
       disaster assistance. This ineligible funding only covers the KDHAP portion of rental
       payments based on the KDHAP Information System and does not reflect DVP
       funding. In addition, the Authority analysis was separate from the file review of the
       162 participants.

Less Than 1 Percent Error Rate

       Given the need for an immediate response to Hurricane Katrina, which made
       landfall on August 29, 2005, HUD had developed the initial stages of the KDHAP
       program by October 2005. Based upon the audit results, 84 participants were
       ineligible, which included the 52 from the file review and 32 from the Authority
       data analysis. This number constitutes a less than 1 percent error rate.


Conclusion

       Our review of HUD’s determination of KDHAP and DVP eligibility disclosed
       that HUD did not always ensure that only eligible KDHAP/DVP participants
       received disaster assistance. These participants were either (1) inactive or not
       located in the PIC or TRACS databases before the Hurricane Katrina evacuation
       or (2) voucher holders in search of housing who had not executed a housing
       assistance payments contract. These participants did not reside in a HUD-assisted
       dwelling and were, therefore, ineligible.



                                         9
     The review disclosed that a total of 84 participants were ineligible for disaster
     assistance. As a result, as of August 31, 2007, HUD had spent $760,317 on 84 of
     these participants and could pay an additional $153,808 by the end of the program
     if no action is taken (see footnote 4). HUD should remove these participants from
     the Disaster Information System and implement necessary measures to cease
     payments for ineligible participants to prevent future funds from being misspent.

     HUD should also perform a system review to ensure that all participants entered
     into the Disaster Information System are eligible to receive assistance and if other
     ineligible participants are determined, take appropriate actions to remove them
     from the database. In addition, HUD should require public housing agencies
     administering the programs to determine whether the participants were HUD
     assisted before August 29, 2005, or contact the predisaster (initial) housing
     agency to provide an accurate account of the participants’ history.


Recommendations

     We recommend that HUD’s Director of Housing Voucher Programs

        1A. Take appropriate actions deemed necessary to recover or write off the
            $760,317 in federal funds that was misspent on 84 ineligible
            participants (see footnote 4).

        1B.     Immediately cease paying funding on the participants ineligible for
               KDHAP and/or DVP to prevent misspending $153,808 in federal funds.
               This amount was calculated for the costs that HUD would pay for
               ineligible participants expected to participate from September 2007 to
               the end of the program.

        1C.    Perform a system review to ensure that all participants entered into the
               Disaster Information System are eligible to receive assistance and if
               other ineligible participants are determined, take appropriate actions to
               remove them from the database.

        1D.    Require public housing agencies administering the programs to
               determine whether the participants were HUD assisted before August
               29, 2005, or contact the predisaster (initial) housing agency to provide
               an accurate account of the participants’ history.




                                      10
                                   SCOPE AND METHODOLOGY

We performed our audit work between January and August 2007. We conducted our audit at
HUD Office of Inspector General (OIG) headquarters and the New Orleans, Jackson, and
Houston field offices. We also visited and/or contacted various multifamily complexes receiving
HUD subsidies and initial and receiving public housing agencies maintaining the files of the
participants we reviewed.

To accomplish our objectives, we selected a file review of 167 KDHAP/DVP participants.
These participants received HUD assistance under Section 8, public housing, or multifamily
programs before Hurricane Katrina and are now receiving assistance under KDHAP and/or DVP.
We used the KDHAP Information System as of August 22, 2006, which held 15,817 participants.
We compared the KDHAP Information System to PIC and TRACS to filter out KDHAP/DVP
participants who were potentially not HUD assisted (ineligible) before Hurricane Katrina.

From the total of the potentially ineligible participants, we removed those that did not have
participant files available. As a result, we identified 170 total potential ineligible participants
with available files, as follows:

            •    45 participants who were under the Section 8 program before Hurricane Katrina.
            •    43 participants who were under the public housing program before Hurricane Katrina.
            •    82 participants who were under the multifamily program before Hurricane Katrina.

Of the 170 total ineligible participants, three participants appeared twice, reducing the total
ineligible participants to 167. We were unable to determine the eligibility for five more of the
participants. As a result, we reviewed 162 participants’ eligibility.

We also performed data analysis related to the Authority. We compared the PIC database to the
KDHAP Information System and identified potential ineligible participants. We then collected a
list of potential ineligible participants who had the Authority listed as the pre-Hurricane Katrina
housing agency and compared it to Authority listings of active participants 5 to identify ineligible
participants.

In addition to file reviews and data analysis, we performed the following fieldwork:

            •    Interviewed HUD and public housing agency officials.
            •    Reviewed the mission assignment agreement between HUD and FEMA, applicable
                 PIH notices, guidelines, regulations, and requirements.
            •    Reviewed related documents, database timelines, and other applicable information
                 that HUD used to implement KDHAP/DVP.




5
    The participants were active at the time of Hurricane Katrina.


                                                                     11
The audit covered the period September 1, 2005, through August 31, 2007. We adjusted our
scope as necessary. We conducted the audit in accordance with generally accepted government
auditing standards.




                                             12
                              INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objective:

              •       Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                                13
Significant Weakness


           Based on our review, we believe the following item is a significant weakness:

           •   HUD did not always ensure that only eligible KDHAP/DVP participants
               received disaster assistance (finding 1).




                                            14
                       FOLLOWUP ON PRIOR AUDITS

In January 2006, PIH took the initiative to perform a KDHAP front-end risk assessment. In
February 2006, PIH submitted the risk assessment to the Deputy Assistant Chief Financial
Officer for Financial Management, who approved the KDHAP front-end risk assessment. The
risk assessment identified three of ten items with an unsatisfactory risk level. The three risks
included (1) personnel adequacy, (2) adequacy of appropriations, and (3) system/ADP
(automated data processing) considerations.

As it relates to the systems/ADP considerations risk, PIH identified that (1) the KDHAP
Information System’s requirements were not clearly defined, (2) existing systems did not meet
HUD’s needs for managing KDHAP, (3) HUD had encountered problems in accessing data from
PIC and TRACS, and (4) deficiencies existed in the controls established over the KDHAP
Information System.

In December 2006, we issued a memorandum to HUD citing survey results related to
determining whether the public housing agencies executed the HUD requirements in an efficient
and effective manner. We determined that the two housing agencies we visited appropriately
administered KDHAP and DVP. However, we identified issues that needed further
consideration. We found that DVP participants either were not in PIC, their vouchers had
expired, or they were ineligible to receive KDHAP or DVP assistance. As a result of this survey,
we initiated an audit to determine whether HUD properly determined the eligibility of KDHAP
and DVP participants.




                                                15
                                   APPENDIXES
Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

                   Recommendation          Ineligible   Funds to be
                      number                            put to
                                                        better use
                                                 1/         2/

                          1A                 $760,317

                          1B                             $153,808

                          Totals             $760,317    $153,808



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     policies or regulations. The $760,317 includes an estimate of $76,923 in misspent federal
     funds for 32 KDHAP/DVP participants that were identified as ineligible as a result of
     data analysis (see footnote 4).

2/   Recommendations that funds to be put to better use are estimates of amounts that could
     be used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. The $153,808 was calculated for the costs that HUD would pay for ineligible
     participants expected to participate from September 2007 to the end of the program.




                                            16
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1
Comment 2




                         17
Ref to OIG Evaluation   Auditee Comments




                         18
Ref to OIG Evaluation   Auditee Comments




Comment 1
Comment 2




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 2




Comment 3




                         20
Ref to OIG Evaluation   Auditee Comments




Comment 4




                         21
Ref to OIG Evaluation   Auditee Comments




                         22
Ref to OIG Evaluation   Auditee Comments




                         23
Ref to OIG Evaluation   Auditee Comments




                         24
Ref to OIG Evaluation   Auditee Comments




                         25
                     OIG Evaluation of Auditee Comments


Comment 1   We thank HUD for its positive response and agreeing with the finding. We
            commend HUD’s efforts to develop disaster programs to aid the hurricane
            victims. KDHAP was implemented in less than two months and had a less
            than 1 percent eligibility error rate. Both KDHAP and DVP served as aid for
            disaster victims to find safe and sanitary dwellings after Hurricanes Katrina
            and Rita.

Comment 2   HUD generally agreed with the finding, however disagreed with three of the
            four recommendations. In regard to recommendations 1A and 1B concerning
            funding for ineligible participants, HUD contends that it accepts the risk of
            program implementation and would not recover the misspent funds. We
            respectfully ask that HUD reconsider its position. The Department of Defense
            Emergency Supplemental, which funded this program, stated that the disaster
            funding “shall be limited to those which, prior to Hurricane Katrina or Rita
            received assistance under Section 8 or 9 of the United States Housing Act of
            1937.” The Supplemental also allows funding for participants who were
            “homeless or resided in an emergency shelter, prior to Hurricane Katrina or
            Rita.” The Supplemental does not allow for disaster funding to be expended
            on ineligible participants. Further, no federal waiver was provided that would
            allow HUD to provide funding to participants ineligible for the program.
            Thus, HUD should write off and/or recover the misspent funds and not make
            any other payments for ineligible participants.

Comment 3   HUD disagreed with recommendation 1C, stating that it had already evaluated
            the Disaster Information System and located the ineligible participants. HUD
            made the policy decision not to cease payments for ineligible participants.
            We commend HUD for taking the initiative to perform the system review.
            However, we respectfully ask that HUD reconsider removing these ineligible
            participants and ceasing further payments, since federal regulations do not
            allow funding for ineligible participants.

Comment 4   HUD also provided technical comments for OIG to consider adding to the
            report. We reviewed HUD’s comments and generally agreed with the
            suggestions. We added verbiage that more closely relates to the language
            within criteria relevant to KDHAP and/or DVP. However, we did not change
            some comments due to OIG guidelines.




                                        26
Appendix C

    INELIGIBLE PARTICIPANT FUNDING CALCULATIONS


                                        Ineligible funding for Ineligible funding for Total ineligible
  Description of       Ineligible              KDHAP                    DVP              funding
      samples         participants                ($)                    ($)                 ($)
Section 8 program                    13                 21,126                130,125          151,251
Public housing
program                               2                   8,526               20,378           28,904
Multifamily program                  37                 104,685              398,554          503,239
Authority data
analysis                             32                76,923          Not Calculated          76,923
Total                                84              $211,260               $549,057         $760,317




                                                   27
Appendix D

          KDHAP FAMILY ELIGIBILITY REQUIREMENTS

To receive KDHAP assistance, all of the following criteria must be met:

              1. The individual or family must have evacuated from a Hurricane Katrina
                 federally declared disaster area within Louisiana, Mississippi, or Alabama;
              2. The individual’s or family’s residence must have been destroyed or be
                 uninhabitable, as determined by FEMA;
              3. The individual or family must register with FEMA by December 31, 2005;
                 and
              4. The individual or family, immediately before the evacuation, must have either
                     a. Resided in a HUD-assisted dwelling unit;
                     b. Received rental or facility-based assistance through a special needs
                         housing program (Supportive Housing Program, Shelter Plus Care, or
                         Housing Opportunities for Persons with AIDS); or
                     c. Been homeless immediately before Hurricane Katrina.

A HUD-assisted dwelling unit is defined as a unit receiving a rental subsidy under one of the
following HUD-assisted rental programs: rental public housing, units receiving tenant-based or
project-based Section 8 assistance (including vouchers and Moderate Rehabilitation Single
Room Occupancy projects but excluding homeownership voucher units), rental Indian housing,
Section 202 housing, Section 811 housing, Section 236 housing, units in FHA-insured and
noninsured projects with rental assistance payments assistance or rent supplement assistance,
Section 221(d)(3) below market interest rate (BMIR) housing, and noninsured Section 236(b)
housing.




                                              28
Appendix E

               DVP FAMILY ELIGIBILITY REQUIREMENTS

According to Notice PIH 2006-12, to be determined eligible for DVP, all of the following
criteria must be met:

                 1. The individual or family must have evacuated from a Hurricane Katrina
                    federally declared disaster area within Louisiana, Mississippi, or Alabama or a
                    Hurricane Rita federally declared disaster area within Louisiana or Texas;
                 2. Except in cases in which a predisaster voucher participant will receive DVP
                    assistance from his or her predisaster public housing agency in the most
                    heavily impacted areas of Louisiana and Mississippi, the individual’s or
                    family’s residence must have been destroyed or be uninhabitable or lack
                    essential services, as determined by HUD or a HUD-designated entity; and
                 3. The individual or family, immediately before evacuation, must have either
                        a. Resided in a HUD-assisted dwelling unit as defined below;
                        b. Resided in an emergency shelter, transitional housing, or housing
                            assisted through a special needs housing program (Supportive Housing
                            Program, Shelter Plus Care, or Housing Opportunities for Persons with
                            AIDS); or
                        c. Been homeless (i.e., sleeping on the streets or in other places not
                            meant for human habitation) immediately before Hurricane Katrina or
                            Rita.

A HUD-assisted dwelling unit is defined as a unit receiving a rental subsidy under one of the
following HUD-assisted rental programs: rental public housing, units receiving tenant-based or
project-based Section 8 assistance (including vouchers and Moderate Rehabilitation Single
Room Occupancy projects but excluding homeownership voucher units), Section 202 housing,
and Section 811 housing.6




6
  After Congress passed the Emergency Supplemental Appropriations Act for Defense, the Global War on Terror,
and Hurricane Recovery on June 15, 2006, HUD expanded the definition of “HUD-assisted dwelling unit.”
Therefore HUD issued Notice PIH 2006-37, which included non-Section 8 units in Section 236 housing, non-
Section 8 units in noninsured Section 236(b) housing, non-Section 8 units in Section 221(d)(3) below market interest
rate housing, and units in FHA-insured and noninsured projects with rental assistance payments assistance or rent
supplement assistance as HUD-assisted dwelling units.


                                                        29
Appendix F

   FUNDING PROVIDED TO INELIGIBLE PARTICIPANTS
  (NON-HUD-ASSISTED BEFORE HURRICANE KATRINA)

                 Total rental                                               Total rental
                  assistance    Total rental                Projections for assistance
                    under        assistance                  future rental   including
                   KDHAP        under DVP      Total           assistance   projections     Inactive effective
    Count             ($)            ($)        ($)                ($)          ($)               date
             1       2,635.00       5,744.00    8,379.00              N/A        8,379.00         July 1, 2005
             2       3,236.00       5,551.00    8,787.00              N/A        8,787.00       April 3, 2003
             3         165.00      19,719.00   19,884.00          3,944.00      23,828.00       March 1, 2005
             4           N/A       14,296.00   14,296.00              N/A       14,296.00      August 1, 2005
             5       3,436.00      20,953.00   24,389.00          4,980.00      29,369.00      August 1, 2005
             6       2,080.00      10,906.00   12,986.00          2,296.00      15,282.00         July 1, 2004
             7       2,363.00       6,010.00    8,373.00              N/A        8,373.00         June 1, 2005
             8       1,560.00       7,430.00    8,990.00              N/A        8,990.00         May 1, 2005
             9       2,476.00      11,872.00   14,348.00              N/A       14,348.00         July 1, 2005
            10           N/A        4,901.00    4,901.00              N/A        4,901.00         May 1, 2004
            11         750.00      12,766.00   13,516.00          2,972.00      16,488.00     February 1, 2005
                    Unable to      Unable to
            12      determine      determine        0.00              0.00           0.00 Unable to determine
            13       5,002.00      17,238.00   22,240.00          4,056.00      26,296.00   February 5, 2005
            14       2,098.00      12,160.00   14,258.00          6,400.00      20,658.00           No record
            15       2,966.00       8,399.00   11,365.00          2,240.00      13,605.00           No record
            16           N/A        7,120.00    7,120.00              N/A        7,120.00           No record
            17       6,855.00      13,310.00   20,165.00              N/A       20,165.00           No record
            18           N/A       12,711.00   12,711.00          7,770.00      20,481.00           No record
            19         113.00      12,742.00   12,855.00          7,430.00      20,285.00           No record
            20       1,639.00      13,160.00   14,799.00          9,400.00      24,199.00           No record
            21       1,755.00       8,797.00   10,552.00              N/A       10,552.00           No record
            22       1,365.00      10,902.00   12,267.00          7,490.00      19,757.00       July 31, 2005
            23         519.00         335.00      854.00              N/A          854.00    August 17, 2005
            24         617.00       1,552.00    2,169.00              N/A        2,169.00      May 30, 2005
            25       1,540.00       7,756.00    9,296.00              N/A        9,296.00    August 25, 2005
            26       1,448.00       7,106.00    8,554.00              N/A        8,554.00        July 5, 2005
            27       2,222.00      11,728.00   13,950.00          2,972.00      16,922.00    August 23, 2005
            28       1,725.00       7,080.00    8,805.00              N/A        8,805.00        July 5, 2005
            29       2,466.00       9,590.00   12,056.00          6,165.00      18,221.00           No record
            30       2,525.00      18,330.00   20,855.00         10,440.00      31,295.00    March 31, 2005
            31       2,295.00      12,825.00   15,120.00          2,700.00      17,820.00           No record
            32       1,600.00      14,616.00   16,216.00            818.00      17,034.00 February 28, 2005
            33       3,785.00      18,252.00   22,037.00         10,140.00      32,177.00        May 3, 2005




                                                       30
               Total rental                                                   Total rental
                assistance     Total rental                   Projections for assistance
                  under         assistance                     future rental   including
                 KDHAP         under DVP         Total           assistance   projections     Inactive effective
  Count             ($)             ($)           ($)                ($)          ($)               date
          34      13,452.00            N/A       13,452.00              N/A       13,452.00 September 20, 2004
          35      24,137.00            N/A       24,137.00          4,400.00      28,537.00     March 31, 2005
          36       1,949.00        8,844.00      10,793.00              N/A       10,793.00          No record
          37       3,832.00       16,614.00      20,446.00              N/A       20,446.00      July 22, 2004
          38       2,124.00       12,024.00      14,148.00          6,680.00      20,828.00      July 28, 2005
          39       1,145.00        8,010.00       9,155.00              N/A        9,155.00        July 5, 2005
          40         780.00       12,346.00      13,126.00          6,780.00      19,906.00      June 24, 2005
          41       2,183.00       14,117.00      16,300.00                        16,300.00          No record
          42       3,388.00       10,482.00      13,870.00            727.00      14,597.00          No record
          43           N/A        11,004.00      11,004.00          9,750.00      20,754.00       June 6, 2005
          44       3,007.00       19,766.00      22,773.00          1,014.00      23,787.00      July 30, 2005
          45       1,836.00       12,240.00      14,076.00              N/A       14,076.00   February 1, 2005
          46         835.00       14,195.00      15,030.00          8,350.00      23,380.00   January 25, 2005
          47           N/A         9,851.00       9,851.00              N/A        9,851.00     March 18, 2005
          48       4,184.00       14,900.00      19,084.00         12,000.00      31,084.00       April 8, 2005
          49       2,432.00       18,018.00      20,450.00         10,010.00      30,460.00      June 26, 1905
          50       1,868.00        7,672.00       9,540.00              N/A        9,540.00     August 1, 2005
Totals          $ 128,388.00    $ 535,940.00   $ 664,328.00     $ 151,924.00   $ 816,252.00




                                                         31
Appendix G

   FUNDING PROVIDED TO INELIGIBLE PARTICIPANTS
     (WITHOUT A HOUSING ASSISTANCE PAYMENTS
                   CONTRACT)




                                                                                             Total rental
                       Total rental    Total rental                      Projections for      assistance
                        assistance      assistance                        future rental       including
                      under KDHAP      under DVP            Total           assistance       projections
          Count             ($)             ($)              ($)                ($)               ($)
                  1         2,425.00        9,977.00         12,402.00            1,884.00       14,286.00
                  2         3,524.00        3,140.00          6,664.00                N/A         6,664.00
       Totals           $   5,949.00    $ 13,117.00     $ 19,066.00       $       1,884.00    $ 20,950.00




                                                       32
